No. 19-123

In the Supreme Court of the United States
__________

SHARONELL FULTON, ET AL.,
Petitioners,
v.
CITY OF PHILADELPHIA, ET AL.,
Respondents.
__________
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
THIRD CIRCUIT

__________
BRIEF OF JAMES AND GAIL BLAIS AND THE
GENERAL CONFERENCE OF SEVENTH-DAY
ADVENTISTS AS
AMICI CURIAE
IN SUPPORT OF PETITIONERS
__________
TODD MCFARLAND
Counsel of Record
Associate General Counsel
Office of General Counsel
General Conference of
Seventh-day Adventists
12501 Old Columbia Pike
Silver Spring, MD 20904
301-680-6321
mcfarlandt@gc.adventist.org

ANDREW G. SCHULTZ
Rodey, Dickason, Sloan,
Akin & Robb, P.A.
201 Third Street, NW
Albuquerque, NM 87102

Counsel for Amici Curiae

i

QUESTION PRESENTED
Whether a government violates the First
Amendment by conditioning a religious
individual’s ability to participate in the foster
care system on taking actions and making
statements that directly contradict the
individual’s religious beliefs?

ii

TABLE OF CONTENTS
Page
QUESTION PRESENTED ..............................i
TABLE OF CONTENTS ................................ ii
TABLE OF AUTHORITIES ......................... iv
INTEREST OF AMICI CURIAE .................... 1
INTRODUCTION AND
SUMMARY OF THE ARGUMENT .............. 5
ARGUMENT .................................................. 6
I.

Christian individuals who are more
likely to serve as foster parents may
not be permitted to perform this
critically-needed function in the
nation’s foster system ............................. 6

II. The Free Exercise Clause protects
individuals from being compelled
to disavow their sincerely-held

iii

religious beliefs in order to secure
a state foster license ............................. 18
CONCLUSION ............................................. 26

iv

TABLE OF AUTHORITIES
Page(s)
Cases
Blais v. Hunter, No. 2:20-CV-00187-SMJ
(E.D. WA filed May 22, 2020) ................ 17
Corporation of Presiding Bishop of
Church of Jesus Christ of Latter-day
Saints v. Amos, 483 U.S. 327 (1987) ...... 19
Gonzales v. O Centro Espirita
Beneficente Uniao Do Vegetal, 546 U.S.
418 (2006) ............................................... 20
Hobbie v. Unemployment Appeals
Commission of Florida, 480 U.S. 136
(1987) ....................................................... 19
Holt v. Hobbs,
574 U.S. 352 (2015) ...................................... 20
Korte v. Sebelius,
735 F.3d 654 (7th Cir. 2013) ........................ 19

v

McDaniel v. Paty,
435 U.S. 618 (1978) ...................................... 21
National Institute of Family & Life
Advocates v. Becerra,
138 S. Ct. 2361 (2018) .................................. 21
Sherbert v. Verner,
374 U.S. 398 (1963) .......................... 19, 21, 24
Thomas v. Review Board,
450 U.S. 707 (1981) ...................................... 20
Trinity Lutheran Church of Columbia,
Inc. v. Comer,
137 S. Ct. 2012 (2017) ............ 6, 21, 22, 23, 25
Wisconsin v. Yoder,
406 U.S. 205 (1972) .......................... 19, 20, 21

vi

Other Authorities
The AFCARS Report #26,
Admin. For Children and Families,
U.S. Department of Health and
Human Services, Children’s Bureau ........ 7
Barna Group: Research, Family & Kids,
“5 Things You Need to Know About
Adoption” (Nov. 4, 2013) .......................... 8
Ron Haskins et al., Brookings
Institution, “Keeping up with the
caseload: How to recruit and retain
retain foster parents” (April 24, 2019) ..... 7
Mark 12:31 ..................................................... 9
Michael W. McConnell, Accommodation
of Religion, 1985 Sup. Ct. Rev. 1 ...... 18, 19
Jedd Medefind, Christian Alliance for
Orphans, “New Barna Research
Highlights Christian Adoption and
Foster Care Among 3 Most Notable

vii

Vocational Trends” (Feb. 12, 2014) ........... 8
Non-relative Foster Homes 2012-2019,
WHO CARES: A National Count
of Foster Homes and Families,
Chronicle of Social Change ........................ 7
Seventh-day Adventist Church
Manual (19th ed. 2015) .............................. 9
“Supporting LGBTQ+ Identified Children
and Youth”, Policy 6900, Washington
State Department of Children, Youth
and Families (July 1, 2018) ..................... 11
2 Tim 3:16 ...................................................... 10

1

INTERESTS OF AMICI CURIAE1
James Blais and Gail Blais reside in
Washington State. They both are observant
members of the Seventh-day Adventist faith.
The Blaises have submitted an application to
become state licensed foster parents in the
hopes that they will be able to adopt Gail’s
eight-month
old
biological
greatgranddaughter, H.V. The Washington State
Department of Children, Youth and Families,
however, has declined to make a decision on
the Blaises’ application because the
Department disagrees with the Blaises’
sincerely-held religious beliefs. In particular,
because the Blaises have a religious
opposition to allowing hormone therapy in
the unlikely event H.V. may develop gender
dysphoria as a teenager, the Department has
stated that their position is inconsistent with
its policy to support foster children who
develop or identify as lesbian, gay, bisexual,
Rule 37 statements: All parties consented or
filed blanket consents to the filing of amicus briefs.
No counsel for any party authored any part of this
brief and no person or entity other than amici funded
its preparation or submission.

1

2

transgender and questioning (“LGBTQ+”)
and thus has refused to act on the Blaises’
foster parent application.
A ruling in favor of Respondents will allow
a government permissibly to exclude
religious individuals like the Blaises from a
government-operated foster care system
unless the individuals affirmatively act in a
manner inconsistent with their sincerely-held
religious beliefs.
Religious individuals
should not be forced to choose between
securing a State foster parent license or
acting in accord with the dictates of their
sincerely-held religious beliefs.
The General Conference of Seventh-day
Adventists is the highest administrative level
of the Seventh-day Adventist Church and
represents over 75,000 congregations with
more than 21 million members worldwide. In
the United States, the North American
Division of the General Conference oversees
the work of more than 5,600 congregations
with more than 1.2 million members.
Since its founding, the Seventh-day
Adventist Church has a long commitment to
religious liberty. From its earliest days, the

3

Adventist Church experienced conflicts
between its values and the requirements of
governments. Through its own programs and
the work of the International Religious
Liberty Association founded in 1893, the
Adventist Church has worked to guarantee
religious liberty for all people in the United
States and around the world. In the United
States the Adventist Church has been a longstanding advocate including working in
coalitions supporting the Religious Freedom
Restoration Act, the Workplace Religious
Freedom Act, and the Fairness For All Act.
A central tenet of the Seventh-day
Adventist faith is to treat all people with
dignity and respect, including people of all
sexual orientations and those with gender
dysphoria. At the same time, from a biblical
perspective an individual’s gender identity is,
in the main, determined by that person’s
birth sex with God being the author of gender
identity. God created humanity as two
persons who are respectively identified as
male and female in terms of gender. The
Bible inextricably ties gender to biological sex
and does not make a distinction between the

4

two.
The
Word
of
God
affirms
complementarity as well as clear distinctions
between male and female in creation.
The Adventist Church and its members’
biblically-based stance on this issue will not
change regardless of this Court’s ruling. The
Church’s ultimate view on this question will
be based upon its obligation to be obedient to
the Bible and God’s commands. Nonetheless,
the Church’s position is that its faithful
members should be free to act in accordance
with their beliefs and not be required to
conform to contrary state policy. Amici urge
the Court consider the significant impact its
ruling can have on the ability of religious
individuals to become foster parents without
having to renounce their religious beliefs.

5

INTRODUCTION AND
SUMMARY OF THE ARGUMENT
The Free Exercise questions before the
Court relate to a government’s ability to
require a religious agency to endorse certain
social policies in contravention of its beliefs
as a condition to participate in a foster care
system. But the Court’s decision in this case
will have unavoidable and far-ranging
implications for the religious liberty of
individuals.
If this Court endorses the government’s
action in requiring a religious agency to
affirm same-sex marriage as the price of
continuing its religious ministry, then
tensions between similar state policies and
the religious beliefs of individuals will result
in future conflicts that will reach this Court.
As vividly shown by the experience of amici
James and Gail Blais, a State can prevent
well-qualified individuals from serving as
foster parents, even for infants, solely
because their religious beliefs relating to
potential medical therapy of LGBTQ+
teenagers does not coincide with the State’s
policies. Despite the Blaises’ ability and

6

willingness to provide a loving home for
children, the State’s unwarranted insistence
on not granting a foster parent license is
based solely on the Blaises’ sincerely-held
religious beliefs.
Just like the Church in Trinity Lutheran
Church of Columbia, Inc. v. Comer, 137 S. Ct.
2012 (2017), religious individuals must be
shielded from facing an unconscionable
dilemma: acting one way in order to secure a
State foster parent license or following the
dictates of their sincerely-held religious
beliefs. No other result can satisfy the Free
Exercise Clause.
I.

ARGUMENT
Christian individuals who are
more likely to serve as foster
parents may not be permitted to
perform this critically-needed
function in the nation’s foster
system.

There is a foster care crisis in America. By
the end of 2018, there were over 435,000

7

children in foster care in the United States.2
At the same time, the number of foster homes
available to care for these vulnerable
children is dropping. Between 2018 and
2019, 14 states saw a decline in the number
of foster homes,3 and nationwide at least onethird of foster parents leave the system each
year.4
There is thus a clear need for qualified,
caring foster parents. And Christians tend to
be more likely to consider fostering to help fill
The AFCARS Report #26, Admin. For Children and
Families, U.S. Dep’t of Health and Human Servs.,
Children’s Bureau,
https://www.acf.hhs.gov/sites/default/files/cb/afca
rsreport26.pdf.

2

Non-relative Foster Homes 2012-2019, WHO
CARES: A National Count of Foster Homes and
Families,
Chronicle
of
Social
Change,
https://www.fostercarecapacity.com/data/nonrelative-homes (last visited May 27, 2020).

3

Ron Haskins et al., Brookings Institution, “Keeping
up with the caseload: How to recruit and retain
foster
parents”
(April
24,
2019),
https://perma.cc/Z4G7-65XA.

4

8

this gap. A recent Barna Group survey found
that 5 percent of practicing U.S. Christians –
compared to 2 percent of all U.S. adults –
have adopted children. The same survey also
found that 3 percent of practicing U.S.
Christians are foster parents and 31 percent
have seriously considered fostering a child.
By comparison, 2 percent of all U.S. adults
are foster parents while 11 percent seriously
considered fostering a child.5
Yet individuals with sincerely-held religious
views may not be able to serve as foster
parents when their religious beliefs clash
with government policies.
Consider, for
example, amici James and Gail Blais.

5See

Jedd Medefind, Christian Alliance for Orphans,
“New Barna Research Highlights Christian Adoption
and Foster Care Among 3 Most Notable Vocational
Trends”
(Feb.
12,
2014),
https://cafo.org/2014/02/12/new-barna-researchhighlights-christian-adoption-foster-care-among-3most-notable-vocational-trends; see also Barna
Group: Research, Family & Kids, “5 Things You
Need to Know About Adoption” (Nov. 4, 2013),
https://perma.cc/J26E-P629.

9

James and Gail Blais are observant
members of the Seventh-day Adventist
Church. The Seventh-day Adventist faith
places a strong emphasis on family life.
Seventh-day Adventists believe that parents
“must gain a sympathetic understanding of
their [children’s] problems, seek to provide
for them a Christian social environment, and
spiritually draw near them so [they] can
impart the ideals, inspiration, and power of
Christianity.” Seventh-day Adventist Church
Manual 152 (19th ed. 2015).
As followers of Jesus, the Church strives to
treat all people with dignity and respect as
they are created in the image of God. This
includes people of all sexual orientations –
heterosexual, homosexual, or those with
gender dysphoria. The Bible commands “You
shall love your neighbor as yourself.” Mark
12:31.
Seventh-day
Adventists
believe
that
Scripture provides principles for guidance to
those who experience incongruity or
uncertainty between their biological sex and
gender identity. As with all facets of daily
existence, Seventh-day Adventists seek

10

guidance from God through Scripture to
determine what is in their best interest and
to live according to His will. 2 Tim 3:16.
Consistent with their faith, James and Gail
Blais wish to become foster parents in order
to provide a loving and caring home for
children. They also hope to be able to adopt
Gail’s biological great-granddaughter, H.V.,
which first requires them to be licensed foster
parents.
In September 2019, shortly after H.V.’s
birth and while she still was in the hospital,
H.V. was removed from her biological parents
and placed in foster care in Idaho based on
concerns for her welfare in the care of her
biological mother. Within a few months, the
Blaises expressed an interest in caring for
H.V. by becoming her foster parents with the
goal of adoption if reunion with her mother
was not possible. Gail and James are the
only biological relatives who have expressed
an interest and ability in fostering and
adopting H.V.
The Department administers the State’s
foster licensing and placement program. The
particular requirements for becoming a foster

11

parent are laid out in detail in Washington
law.
In July 2018, the Department enacted
Policy 6900, entitled “Supporting LGBTQ+
Identified Children and Youth.” That policy
is designed to address the needs of children
and youth who are developing, discovering, or
identifying themselves as LGBTQ+ and to
“provide guidance to assist CA staff in
identifying and referring LGBTQ+ children
and youth to appropriate and culturally
responsive services.” The policy requires
Department caseworkers to “[c]onsider the
child or youth’s LGBTQ+ identity as a factor
when making placement decisions,” and
mandates that a caseworker “support any
youth identifying as transgender and seeking
gender affirming medical services.”
Since they first expressed an interest in
fostering H.V. with the possibility of adoption
in December 2019, the Blaises have
participated in Department mandated
training and orientation programs and have
taken several required certification courses.
In addition, the Department performed an
inspection of the Blaises’ home.

12

Department
personnel
also
have
interviewed the Blaises on numerous
occasions. During all of these interviews, the
Department personnel were aware that
James and Gail Blais are observant Seventhday Adventists.
During the first interview in January 2020
(when H.V. was only four months old), the
Blaises were extensively questioned about
hypothetical issues related to H.V.’s possible
future sexual orientation and gender
identity.
These questions included such
things as:
 How would the Blaises react if H.V. was
a lesbian?
 Would the Blaises allow H.V. to have a
girl spend the night at their home as H.V.’s
romantic partner?
 If at 15 years old, H.V. wanted to
undergo hormone therapy to change her
sexual appearance, would the Blaises support
that decision and transport her for those
treatments?
 If as a teenager, H.V. wanted to dress
like a boy and be called by a boy’s name,

13

would the Blaises accept her decision and
allow her to act in that manner?
The Blaises responded to all of the
questions openly, honestly and in a manner
consistent with their religious beliefs. They
made clear that, as Seventh-day Adventists,
they believe it is important and part of their
Christian obligation to love and support all,
particularly youths who may feel isolated or
uncomfortable because of who they are,
including those youths who are realizing
their sexual orientation or identity. The
Blaises stated that they would provide a
supporting and loving home for any child
placed under their care – particularly their
own family member – regardless of how that
child may identify.
With regard to the specific hypothetical
questions relating to possible hormone
therapy, the Blaises responded that although
they could not support such treatments based
on their sincerely-held religious convictions,
they absolutely would be loving and
supportive of H.V. In the unlikely event H.V.
may develop gender dysphoria (or any other
medical condition) as a teenager, the Blaises

14

were clear that they would provide her with
loving,
medically
and
therapeutically
appropriate care that is consistent with both
then-accepted medical principles and their
beliefs as Seventh-day Adventists and
Christians.
The Department licensor who conducted the
interview responded that the Blaises’
answers were inconsistent with the
Department’s policy to support LGBTQ+
youth. The licensor later contacted the
Blaises and asked them to review
Department materials so that they might
“make a more informed decision about
supporting LGBTQ+ youth in foster care.”
The Blaises complied, but again expressed
their faith-based conviction that they could
not support hormone treatment for transition
purposes.
They
also
repeated
their
commitment to provide H.V. with the best
care and most loving home that they can,
regardless of her potential sexual orientation
or identity.
Given their willingness to
welcome H.V. into their home and raise her
as their own child, the Blaises asked the
Department to approve their application to

15

become foster parents. The licensor said that
“this will be discussed further.”
In February 2020 (when H.V. was 5 months
old), the Department licensor interviewed
James and Gail Blais a second time and
asked many of the same kinds of hypothetical
questions related to H.V.’s possible sexual
orientation and gender identity when she
would be a teenager. The Blaises gave
similar answers based on their religious
convictions. In response, the Department
licensor stated that they should drop their
request to become licensed foster parents
because their views about handling H.V.’s
possible future gender identity issues were
inconsistent with the Department’s policy.
The Blaises refused to change their responses
and refused to withdraw their foster parent
application.
The Blaises sat for yet a third Department
interview in March 2020, this time with the
Department licensor and the Department’s
LGBTQ+ lead. Once again, the sole focus of
the interview questions was on the manner in
which the Blaises would respond to H.V.’s
possible future sexual orientation and gender

16

identity when she was a teenager. Once
again, the Blaises cooperated fully during the
third interview, and again responded to all of
the questions honestly and in a manner
consistent with their religious beliefs. At the
end of this third interview, the Department
personnel stated that they were at “an
impasse” as how to proceed with the Blaises’
foster parent license application.
H.V. is an infant. At no time during the
application process has she exhibited any
issues with regard to sexual orientation or
gender preference.
The Department has
ignored this obvious fact and instead,
persistently has focused on how the Blaises
will interact with their biological family
member fifteen years from now if she should
develop gender dysphoria.
The result of the Department’s prolonged
inaction is that H.V. remains in non-relative
foster care in Idaho. Gail and James Blais –
her biological family who wish to bring her
into their home – are permitted to see her
only sporadically during supervised visits.
Under Washington law, if the Department
determines that a person pursuing licensing

17

as a foster parent is not suitable or
competent to provide care or have
unsupervised access to a child, then it must
provide the reasons for its decision in writing
with copies of the documents related to its
decision to the individual within ten days of
making the decision.
Despite this
requirement, the Department has yet to act
on the Blaises’ application to become licensed
foster parents and has refused to state when
it will make a decision.
The Blaises have filed a federal civil rights
lawsuit in the Eastern District of Washington
challenging the Department’s unwarranted
intransigence in acting on their foster parent
application as violating their First and
Fourteenth Amendment rights.
Blais v.
Hunter, No. 2:20-CV-00187-SMJ (E.D. WA
filed May 22, 2020). This kind of litigation
highlights the need to ensure that religious
individuals who want to become foster
parents and provide a safe, stable and caring
home for children are not denied that
opportunity because their religious beliefs
are inconsistent with a state agency’s policy.

18

II. The Free Exercise Clause protects
individuals from being compelled to
disavow their sincerely-held religious
beliefs in order to secure a state foster
parent license.
If this Court finds that the government can
deny a religious agency the ability to provide
foster care unless the agency certifies foster
parents inconsistent with its religious beliefs
about sex and marriage, then the religious
freedom of individual prospective foster
parents will be in peril. Governments will be
able to determine which individuals may
serve as foster parents based on whether
their religious beliefs coincide with particular
social policies the State chooses to adopt.
Such a result is the antithesis of the right to
religious
liberty
enshrined
in
the
Constitution.
Religion is singled out in the Constitution
for the special protections afforded by the
Religion Clauses of the First Amendment. As
one noted scholar has observed, “religious
liberty is the central value and animating
purpose of the Religion Clauses.” Michael W.

19

McConnell, Accommodation of Religion, 1985
Sup. Ct. Rev. 1, 1. Indeed, “[t]he values
underlying [the Religion Clauses] * * * have
been zealously protected, sometimes even at
the expense of other interests of admittedly
high social importance.” Wisconsin v. Yoder,
406 U.S. 205, 214 (1972).
“One obvious and intuitive aspect of
religious liberty is the right of conscientious
objection to laws and regulations that conflict
with conduct prescribed or proscribed by an
adherent’s faith.” Korte v. Sebelius, 735 F.3d
654, 677 (7th Cir. 2013). For this very
reason, “[t]his Court has long recognized that
the government may (and sometimes must)
accommodate religious practices * * *.” Corp.
of Presiding Bishop of Church of Jesus Christ
of Latter-day Saints v. Amos, 483 U.S. 327,
334 (1987) (quoting Hobbie v. Unemployment
Appeals Comm’n of Fla., 480 U.S. 136, 144145 (1987).
Any number of cases exemplify this
doctrine. See, e.g., Sherbert v. Verner, 374
U.S. 398 (1963) (granting religious exemption
to Seventh-day Adventist who was denied
unemployment compensation benefits after

20

she lost her job for refusing to work on her
Sabbath day); Wisconsin v. Yoder, 406 U.S.
205 (1972) (allowing religious exemption to
Amish
families
who
challenged
the
application of a state compulsory-education
law requiring their children to attend public
school through age 16); Thomas v. Review
Bd., 450 U.S. 707 (1981) (creating religious
exemption for a Jehovah’s Witness denied
unemployment compensation benefits after
he was fired for declining a job transfer to a
department that produced war materials);
Gonzales v. O Centro Espirita Beneficente
Uniao Do Vegetal, 546 U.S. 418 (2006)
(requiring exception to Controlled Substances
Act to allow use of otherwise-banned
sacramental tea by members of a Brazilian
church). Cf. Holt v. Hobbs, 574 U.S. 352, 358
(2015) (explaining that the Religious Land
Use and Institutionalized Persons Act of
2000 provides “expansive protection for
religious liberty.”).
In the specific context of child rearing, this
Court has recognized the right of parents to
raise their children consistent with their
religious beliefs and in contravention of state

21

educational laws. Wisconsin v. Yoder, 406
U.S. 205 (1972).
The protection given by this Court to
religious objectors in a wide range of
circumstances emphasizes the high value our
nation places on religious freedom. This
solicitude for religious liberty extends beyond
these rulings, and is seen in the specific
context of religious individuals having been
denied a government-issued license because
of their beliefs.
A government does not have “unfettered
power to reduce a group’s First Amendment
rights by simply imposing a licensing
requirement.” National Inst. of Family &
Life Advocates v. Becerra, 138 S. Ct. 2361,
2375 (2018). And specifically with regard to
religious liberty, “when the State conditions a
benefit in this way, * * * the State has
punished the free exercise of religion.”
Trinity Lutheran Church of Columbia, Inc. v.
Comer, 137 S. Ct. 2012, 2022 (2017) (citing
McDaniel v. Paty, 435 U.S. 618, 626 (1978)
(plurality op.)). See Sherbert v. Verner, 374
U.S. 398, 404 (1963) (“It is too late in the day
to doubt that the liberties of religion and

22

expression may be infringed by the denial of
or placing of conditions upon a benefit or
privilege.”)
This Court’s decision in Trinity Lutheran
Church of Columbia, Inc. v. Comer serves as
a leading example of this Court’s current
treatment of claims for religious liberty in the
context of government grants of benefits.
There, the Trinity Lutheran Church Child
Learning Center wanted to obtain a grant
from the Scrap Tire Program run by
Missouri’s Department of Natural Resources.
This program awards reimbursement grants
to qualifying nonprofits that upgrade
playgrounds, and thereby ease burdens on
landfills, using materials made from used
tires.
Although the church’s application
scored well, the State nevertheless denied the
grant, “simply because of what it is – a
church.” 137 S. Ct. at 2023.
The Court held that the State’s action
violated the Free Exercise Clause. The Court
rejected the State’s claim that a decision not
to grant money that it had no obligation to
provide leaves the church free to believe and
profess religious truths and imposes no

23

burden on religious exercise. The Court
framed the matter differently: “[T]he
Department’s policy puts Trinity Lutheran to
a choice: It may participate in an otherwise
available benefit program or remain a
religious institution.” Id. at 2021-2022. This
is an impermissible imposition. It is not that
the church is “claiming any entitlement to a
subsidy” or that the state has “criminalized
the way Trinity Lutheran worships”; instead,
the “express discrimination against religious
exercise here is * * * the refusal to allow the
Church—solely because it is a church—to
compete with secular organizations for a
grant.” Id. at 2022. “[T]he exclusion of
Trinity Lutheran from a public benefit for
which it is otherwise qualified, solely because
it is a church, is odious to our Constitution *
* * and cannot stand.” Id. at 2025.
If this Court upholds the government’s
action in the present case, then individuals
with sincerely-held religious beliefs contrary
to state policy would confront the same
unconstitutional conundrum imposed on the
Church in Trinity Lutheran In the Blaises’
situation, for example, a State agency’s policy

24

with regard to serving the needs of LGBTQ+
teenagers puts would-be foster parents to a
choice: they may secure a State foster parent
license or follow the dictates of their
sincerely-held religious beliefs.
Even more egregiously, in order to secure a
foster parent license from the State, the
Blaises would be compelled affirmatively to
act in a manner that their faith rejects. By
conditioning the approval of the Blaises’
foster parent license application on their
adherence to the Department’s LGBTQ+
policy, the Department conditions the ability
to secure a license upon their “willingness to
violate a cardinal principle of [their] religious
faith,” and thus “effectively penalizes the free
exercise of [their] constitutional liberties.”
Sherbert v. Verner, 374 U.S. at 406.
Perhaps most crucially, this requirement
that religious individuals must bend a knee
to the state’s view is not limited to situations
where there is an actual conflict between an
LGBTQ+ youth and a prospective foster
parents’ religious beliefs.
This case
demonstrates that without this Court’s
protection, states like Washington will be

25

able to drive people of faith from providing
loving homes and being parents for some of
society’s most vulnerable citizens. Rather
than protecting LGBTQ+ youth, these
policies will result in far greater harm to
foster children most in need of the state’s
protection.
Although religious individuals remain free
to continue to adhere to the beliefs of their
Church, “that freedom comes at the cost of
automatic and absolute exclusion from the
benefits of a public program for which [they
are] otherwise fully qualified. And when the
State conditions a benefit in this way * * *
the State has punished the free exercise of
religion.” Trinity Lutheran, 137 S. Ct. at
2022.”

26

CONCLUSION
This Court should reverse the judgment of
the Third Circuit.
Respectfully submitted,
TODD MCFARLAND
Counsel of Record
Associate General Counsel
Office of General Counsel
General Conference of
Seventh-day Adventists
12501 Old Columbia Pike
Silver Spring, MD 20904
(301) 680-6321
mcfarlandt@gc.adventist.org
ANDREW G. SCHULTZ
Rodey, Dickason, Sloan,
Akin & Robb, P.A.
201 Third Street, NW – Suite 2200
Albuquerque, NM 87102
Counsel for Amici Curiae
JUNE 2020

